         United States Government
  National Labor Relations Board
            Office of Inspector General




SEMIANNUAL

REPORT
October 1, 2012 – MARCH 31, 2013




                  NLRB Semiannual report   1
TABLE OF
contents
Executive Summary..........................................................................1

Agency Profile...................................................................................2

Office of Inspector General...........................................................4

Audit Program...................................................................................5

Investigations Program....................................................................8

Legislation, Regulations and Policy............................................. 10

Liaison Activities............................................................................ 11

Information Required by the Act................................................ 12

Audit Reports by Subject Matter................................................. 13

Appendix......................................................................................... 15
EXECUTIVE
SUMMARY

I
     hereby submit the Semiannual Report for the period October 1, 2012 –
     March 31, 2013. This report summarizes the major activities and
     accomplishments of the Office of Inspector General of the National
Labor Relations Board and its submission is in accordance with the Inspector
General Act of 1978, as amended. Section 5 of the Inspector General Act
requires that the Chairman transmit this report to the appropriate committees
or subcommittees of Congress within 30 days of its receipt.
In the audit program, the Office of Inspector General issued one audit
report, conducted the annual review required by the Federal Information
Security Management Act, issued a memorandum identifying the Agency’s
top management and performance challenges, and completed the
Improper Payments Information Act report to Congress and the Office
of Management and Budget. In the investigations program, the Office
of Inspector General processed 185 contacts, initiated 6 cases, closed 8
cases, and issued 4 investigative reports. Our investigative efforts resulted
in one separation while the investigation was pending, one suspension, two
reprimands, and two counselings. One matter was referred for prosecution.
I appreciate the support of all Agency employees in achieving the
accomplishments set forth in this report.




                                             David Berry
                                             Inspector General
                                             April 30, 2013




                                              NLRB Semiannual report            1
AGENCY
profile
    The National Labor Relations Board (NLRB or Agency) is an independent
    Federal agency established in 1935 to administer the National Labor
    Relations Act. The National Labor Relations Act is the principal labor
    relations law of the United States, and its provisions generally apply
    to private sector enterprises engaged in, or to activities affecting,
    interstate commerce. NLRB jurisdiction includes the U.S. Postal Service;
    however, other government entities, railroads, and airlines are not
    within NLRB’s jurisdiction.


The NLRB seeks to serve the public         Board primarily acts as a quasi-
interest by reducing interruptions         judicial body in deciding cases
in commerce caused by industrial           on formal records. The General
strife. It does this by providing          Counsel investigates and prosecutes
orderly processes for protecting           unfair labor practices before
and implementing the respective            administrative law judges, whose
rights of employees, employers,            decisions may be appealed to the
and unions in their relations with         Board, and, on behalf of the Board,
one another. The NLRB has two              conducts secret ballot elections to
principal functions: (1) to determine      determine whether employees wish
and implement, through secret ballot       to be represented by a union.
elections, the free democratic choice      The Board consists of the Chairman
by employees as to whether they            and four Members who are
wish to be represented by a union          appointed by the President with the
in dealing with their employers and,       advice and consent of the Senate.
if so, by which union; and (2) to          Board Members serve staggered
prevent and remedy unlawful acts,          terms of 5 years each. The General
called unfair labor practices, by          Counsel is also appointed by the
either employers or unions.                President with the advice and
NLRB authority is divided by law           consent of the Senate and serves
and delegation. The five-member            a term of 4 years.

2    NLRB Semiannual report
                                                              Seated left to right:
                                                                  Richard Griffin,
                                                             Mark Gaston Pearce,
                                                                Brian Hayes, and
                                                                    Sharon Block




At the beginning of this reporting       field offices throughout the country.
period, the Board consisted of           Three satellite offices for the
Chairman Mark Gaston Pearce              administrative law judges are located
and Members Brian Hayes, Sharon          in Atlanta, San Francisco, and New
Block, and Richard Griffin. During       York City. In December 2012, the
the reporting period, Member             Board approved a reorganization
Hayes’s term expired. Acting             of the field offices. As a result of
General Counsel Lafe Solomon             that reorganization, there are now
continued to serve in that position      28 Regional Offices, 16 Resident
during the reporting period.             Offices, and 7 Subregional Offices.
During Fiscal Year (FY) 2013, the        In March 2013, the Acting General
NLRB is operating under a series of      Counsel proposed additional
Continuing Resolutions that limited      reorganizing of the field offices
funding at the FY 2012 appropriation     that, if approved, would maintain
level. In March, that level of funding   the number of field offices at 51,
was reduced by rescission and the        but reduce the number of Regional
Government-wide sequestration.           Offices to 26 by designating two
The functional funding level of the      Regional Offices to be Subregional
NLRB is $263,748,933.                    Offices.
NLRB Headquarters is located at          Additional information about
1099 14th Street, NW, Washington,        the NLRB can be found at
DC. In addition to the Headquarters      www.NLRB.gov.
building, employees are located in 51

                                             NLRB Semiannual report                   3
OFFICE OF
INSPECTOR GENERAL
    NLRB established the Office of Inspector General (OIG) pursuant to
    the 1988 amendments to the Inspector General Act of 1978 (IG Act).



Resources
Because the NLRB operated under
a series of Continuing Resolutions
for the entire reporting period, the
OIG did not receive an allocation
of funds for FY 2013 operations.
The OIG did, however, receive
sufficient funds, as needed, to
maintain its programs. In addition
to the Inspector General, the OIG
consists of a Counsel/Assistant
Inspector General for Investigations,
an Assistant Inspector General for
Audits, and three auditors. One
auditor position is vacant.




4   NLRB Semiannual report
AUDIT
program
   The Inspector General is to provide policy direction for and is to conduct,
   supervise, and coordinate audits relating to program operations of the
   Agency. During the reporting period, the OIG issued one audit report,
   conducted the annual review required by the Federal Information
   Security Management Act, issued a memorandum identifying the
   Agency’s top management and performance challenges, and completed
   the Improper Payments Information Act report to Congress and the
   Office of Management and Budget (OMB).



Reports Issued                             the End-of-the-Year Spending audit
We issued Audit Report                     report (OIG-AMR-70-12-02).
OIG-F-17-13-01, Audit of the               The Management Letter issued as
NLRB Fiscal Year 2012 Financial            part of the financial statement audit
Statements, on December 6,                 process contained two findings with
2012. The audit, performed by an           recommendations. These findings
independent public accounting firm,        related to termination of network
found that the NLRB’s FY 2012              accounts when the user departs
Financial Statements were fairly           the Agency and the supervisory
stated, and no material weaknesses         review of journal vouchers. The
in controls over financial reporting       Management Letter also provided
were identified. Although no               information on the status of prior
material weaknesses were identified,       years’ recommendations.
an instance involving noncompliance
with laws and regulations was              In their comments to the
reported. That instance was related        Management Letter, the Chairman
to procurement activity that was not       and Acting General Counsel stated
properly processed by the NLRB in          that they agreed with the findings
compliance with the bona fide needs        and recommendations.
rule and the Federal Acquisition           We completed the Federal
Regulation that was identified in          Information Security Management

                                                NLRB Semiannual report           5
Act of 2002 annual review of            3. Implementing the Next
information security programs. The         Generation Case Management
OIG review was accomplished as part        System and seizing opportunities
of the audit of the FY 2012 financial      to create more productive
statements and the completion of           and efficient procedures and
the OMB template. On November              organizations;
15, 2012, the Chairman submitted        4. Managing the Agency’s financial
reports from the Inspector General         resources;
and the Chief Information Officer
to OMB.                                 5. Managing the Agency’s
                                           procurement process to ensure
We issued a memorandum                     compliance with the Federal
identifying the Agency’s Top               Acquisition Regulation;
Management and Performance
Challenges on October 11, 2012.         6. Managing the NLRB’s human
The OIG developed a list of what           capital;
it considers to be the most serious     7. Maintaining the Agency’s
management and performance                 institutional knowledge;
challenges facing the NLRB. The         8. Managing the Agency’s
challenges are:                            information technology resources
1. Managing in the current political       in a manner that achieves
   environment;                            efficiency and security; and
2. Reorganizing and consolidating       9. Implementing audit findings in
   operations;                             a timely manner.

6   NLRB Semiannual report
On March 13, 2013, we complied         Purchase Cards, OIG-
with the provisions of the             AMR-65-11-03, was issued on
Improper Payments Information          September 30, 2011. Management
Act (IPIA), as amended by the          implemented three of the five
Improper Payments Elimination          recommendations made in this
and Recovery Act, and reported         report.
to Congress and OMB documenting        Audit of the NLRB Fiscal Year
our review of the Agency’s improper    2011 Financial Statements,
payment reporting in the Agency’s      OIG-F-16-12-01, was issued on
Performance and Accountability         December 14, 2011, and we reached
Report.                                agreement with management on that
The NLRB stated in its Performance     date. Management implemented six
and Accountability Report that it      of the seven recommendations.
does not make program payments as      Internal Controls in the Office of
described in IPIA and that it has no   Equal Employment Opportunity,
information to report with respect     OIG-AMR-67-12-01, was issued
to erroneous program payments.         on January 9, 2012, and we reached
Our report to Congress and OMB         agreement with management on
stated that we concurred with that     March 9, 2012. Management has
determination.                         not completed action on the five
Audit Follow-up                        recommendations.
Agreed-upon actions were not
completed within 1 year on five
audit reports.
Official Time for Union
Activities, OIG-AMR-62-10-01,
was issued on December 11,
2009, and we reached agreement
with management on that date.
Management implemented one of
the four recommendations made in
the report.
Case Processing Costs, OIG-
AMR-64-11-02, was issued on April
7, 2011, and we reached agreement
with management on June 7,
2011. Management implemented
the recommendation during this
reporting period.

                                           NLRB Semiannual report       7
INVESTIGATIONS
PROGRAM
     The Inspector General is to provide policy direction for and is to conduct,
     supervise, and coordinate investigations relating to the programs and
     operations of the Agency. During this reporting period, we processed
     185 contacts, initiated 6 cases, closed 8 cases, and issued 4 investigative
     reports. Our investigative efforts resulted in one separation while the
     investigation was pending, one suspension, two reprimands, and two
     counselings. One matter was referred for prosecution.



    Case Workload    Contacts Processed       misused the travel card. The
                                              employee was the subject of an
Open
(10/1/2012)
               17 Received              185   investigative report that was issued in
                                              a prior reporting period. OIG-I-459
                    Initiated
Initiated       6   Investigation
                                        2     Investigated and substantiated an
                    Opened Case —
                                ­­­
                                              allegation that an employee used
Closed          8   Referred to         0     Agency information technology
                    Agency                    resources and official time for
Open                Non-Investigative
                                              activities related to outside
(3/31/2013)
               15 Disposition           183   employment. Management is
                                              considering disciplinary action.
Investigative Highlights                      OIG-I-464
Management issued a reprimand                 Two employees were counseled
to an employee who provided                   for management issues that we
misleading information in an                  identified in an investigation of
investigation. The employee was the           official travel. The investigative
subject of an investigative report            report was issued in a prior
issued in a prior reporting period.           reporting period. OIG-I-466
OIG-I-452                                     An employee who was being
Management issued a 25-day                    investigated for a matter related to
suspension to an employee who                 official travel issues separated from

8     NLRB Semiannual report
the Agency. The investigation is        waste, and abuse are encouraged
ongoing for an additional subject.      to contact the OIG. A log of calls
OIG-I-472                               to a nationwide toll-free number
Investigated a matter and issued        or the office numbers and a log of
a report involving ex parte             mail, e-mail, and facsimile messages
communication. OIG-I-473                are maintained. All information
                                        received, regardless of the method
Investigated an allegation that a       used, is referred to as Hotline
manager was acting in a retaliatory     contacts. Hotline contacts are
manner towards an employee.             analyzed to determine if further
We found the allegation was not         inquiry or action is warranted.
substantiated. OIG-I-481
                                        During this reporting period, the
Investigated a matter for the Council   OIG received 185 Hotline contacts,
of the Inspectors General on            of which 45 were telephone calls or
Integrity and Efficiency. OIG-I-482     walk-ins and 140 were in writing.
Investigated and substantiated          Most Hotline contacts are from
an allegation that an employee          members of the public seeking help
wrongfully appropriated an Agency       on an employment-related problem
laptop computer. Management             or issues outside OIG and/or
issued a reprimand to the employee.     Agency jurisdiction. As appropriate,
OIG-I-483                               the OIG refers those Hotline
Referred an allegation involving a      contacts to a NLRB Regional
prohibited personnel practice to the    Office; local, state, or Federal
Office of the U.S. Special Counsel.     agencies; or private resources
OIG-I-486                               to provide assistance.
Hotline
Employees and members of the
public with information on fraud,

                                            NLRB Semiannual report             9
LEGISLATION, REGULATIONS
AND POLICY
   The responsibilities and duties of an OIG include reviewing existing
   and proposed legislation and regulations relating to the programs and
   operations of its agency and making recommendations in the semiannual
   reports concerning the impact of such legislation or regulations on
   the economy and efficiency in the administration of programs and
   operations administered or financed by the agency or the prevention
   and detection of fraud and abuse in such programs and operations.


Legislation                             • S. 188 Advice and Consent
During FY 2013, there were seven          Restoration Act; and
legislative proposals introduced in     • S. 190	 Restoring the Constitutional
Congress that would amend the             Balance of Power Act of 2013.
National Labor Relations Act or
otherwise impact the programs           Regulations
and operations of the Agency:           The Counsel to the Inspector
                                        General is an advisory member
• H.R. 557, Advice and Consent          of the Agency’s Rules Revision
  Restoration Act;                      Committee that develops changes to
• H.R. 795, Protecting American         the Agency’s procedural regulations.
  Jobs Act;
• H.R. 976, To declare that certain
  Agency actions have no force or
  effect and prohibits further action
  by the Board until the matters
  involving the appointment of the
  Board Members are resolved;
• H.R. 1120, Preventing Greater
  Uncertainty in Labor Management
  Relations Act;
• S. 130, NLRB Freeze Act of 2013;


10 NLRB Semiannual report
LIAISON
ACTIVITIES
   The Inspector General is to recommend policies for, and is to conduct,
   supervise, or coordinate relationships between the Agency and other
   Federal agencies, state and local governmental agencies, and non-
   governmental entities. The Inspector General is to give particular
   regard to the activities of the Comptroller General of the United
   States. Similarly, we encourage OIG staff members to participate in
   Agency programs and activities.


Inspector General                        Mining Group. The Counsel to the
Community                                Inspector General participates in the
The Inspector General is a member        Council of Counsels to Inspectors
of the Council of the Inspectors         General.
General on Integrity and Efficiency      Government
(CIGIE). This organization consists      Accountability Office
of Inspectors General at the             The IG Act states that each
Federal Government’s departments         Inspector General shall give
and agencies. The Inspector              particular regard to the activities
General sits as a member of the          of the Comptroller General of
CIGIE Audit Committee and the            the United States, as head of
CIGIE Inspection and Evaluation          the Government Accountability
Committee. The Inspector General         Office, with a view toward avoiding
is also the CIGIE representative         duplication and ensuring effective
to the Chief Financial Officers          coordination and cooperation.
Council.
                                         During this reporting period, we
The Assistant Inspector General          had no activity that involved the
for Audits, or designated auditors,      Government Accountability Office.
participated in the Federal Audit
Executive Council, Financial
Statement Audit Network, and the
Interagency Fraud and Risk Data

                                             NLRB Semiannual report 11
INFORMATION
REQUIRED BY THE ACT
Certain information and statistics       (10) There are no audit reports
based on the activities accomplished     issued before the commencement
during this period are required by       of the reporting period for which
section 5(a) of the IG Act to be         no management decision has been
included in the semiannual reports.      made by the end of the reporting
These are set forth below:               period.
Section 5(a)                             (11) No significant revised
(1), (2), (7) OIG did not identify       management decisions were made
significant problems, abuses             during the reporting period.
or deficiencies relating to the          (12) There are no significant
administration of programs. For the      management decisions with which
purpose of this section, we used the     I am in disagreement.
definition of significant as set forth
                                         (13) There is no information to
in the Federal Managers’ Financial
                                         report under the requirements
Integrity Act.
                                         of section 05(b) of the Federal
(3) Except as noted on page 7,           Financial Management Improvement
corrective action has been completed     Act of 1996.
on all significant recommendations
                                         (14) (15) A peer review of the
that were described in the previous
                                         audit program was conducted
semiannual reports.
                                         by the National Credit Union
(4) One case was referred to             Administration OIG. The peer
prosecutorial authorities.               review report was issued on October
(5) No reports were made to the          31, 2011. A copy of the peer review
Board that information or assistance     report is at the appendix. There were
requested by the Inspector General       no recommendations. The OIG’s
was unreasonably refused or not          investigative program is not subject
provided.                                to the peer review requirement.
(6) A listing by subject matter is       (16) The OIG did not conduct a
located on page 13.                      peer review of any other entities
                                         during this reporting period.
(8), (9) No report issued during
this period had questioned costs.
See Table 1.

12 NLRB Semiannual report
audit REPORTS BY
SUBJECT MATTER
                                                                              Funds
Subject Matter                         Questioned      Unsupported
                                                                           To Be Put To
and Title                                Costs            Costs
                                                                            Better Use

General Administration
NLRB Fiscal Year 2012                      0                0                      0
Financial Statements
OIG-F-17-13-01




Table 1. Reports With                                               Dollar Value
                                           Number of
Questioned Costs                            Reports      Questioned        Unsupported
                                                           Costs              Costs
A. For which no management
  decision has been made by the                0                0                  0
  commencement of the period
B. Which were issued during
   the reporting period
                                               0                0                  0

Subtotals (A+B)                                0                0                  0
C. For which a management decision
  was made during the reporting                0                0                  0
  period

(i) Dollar value of disallowed costs           0                0                  0
(ii) Dollar value of costs not
      disallowed
                                               0                0                  0
D. For which no management
  decision has been made by the                0                0                  0
  end of the reporting period

Reports for which no management
decision was made within six months            0                0                  0
of issuance




                                                       NLRB Semiannual report 13
Table 2. Reports with
Recommendations that                    Number of   Funds To Be Put
                                         Reports     To Better Use
Funds be Put to Better Use
A. For which no management
   decision has been made by the           0              0
   commencement of the period

B. Which were issued during the
   reporting period
                                           0              0

Subtotals (A+B)                            0              0
C. For which a management decision
   was made during the reporting           0              0
   period

(i) Dollar value of recommendations
    that were agreed to by management
                                           0              0

(ii) Dollar value of recommendations
     that were not agreed to by            0              0
     management

D. For which no management decision
   has been made by the end of the         0              0
   reporting period

Reports for which no management
decision was made within six months        0              0
of issuance




14 NLRB Semiannual report
   Appendix
APPENDIX




DRAFT
              NLRB Semiannual report 15
DRAFT
  16 NLRB Semiannual report
DRAFT

        NLRB Semiannual report 17
 Office of Inspector General
National Labor Relations Board
 1099 14th Street, NW, Suite 9820
     Washington, DC 20570


         (202) 273-1960
         (800) 736-2983
    OIGHOTLINE@nlrb.gov
       Fax (202) 273-2344
1099 14th Street, N.W.
Washington, D.C. 20570
